TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                The Federal Tax Deposit Alert Program Helps
                 Taxpayers Comply With Paying Taxes, but
                   Alerts Can Be Worked More Effectively



                                      September 17, 2007

                              Reference Number: 2007-30-180




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 17, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – The Federal Tax Deposit Alert Program Helps
                               Taxpayers Comply With Paying Taxes, but Alerts Can Be Worked
                               More Effectively (Audit # 200630038)

 This report presents the results of our review of the Internal Revenue Service (IRS) Federal Tax
 Deposit (FTD) Alert program (the Alert program). The overall objective of this review was to
 determine the effectiveness of the Alert program criteria and case actions to bring taxpayers into
 compliance with paying taxes. This audit was conducted as part of the annual audit plan.

 Impact on the Taxpayer
 The Alert program provides for early intervention by the IRS when employers do not deposit and
 pay taxes withheld from employees. It identifies taxpayers that appear to be behind in making
 deposits of withholding taxes before their quarterly employment tax returns are due to be filed so
 the IRS can contact the identified taxpayers to resolve the underpayments. The new Alert
 program criteria appear to be working to reduce the overall number of FTD Alerts issued and to
 identify more productive cases. However, employees need to better follow procedures to work
 these cases more effectively and help ensure taxpayers make the proper amounts of deposits.
 FTD Alerts serve the taxpayer’s interest by involving the IRS before enforced collection action1
 or bankruptcy becomes the sole remaining alternative for collecting the taxes owed.



 1
  Enforced collection actions include levies of taxpayer assets, such as bank accounts, and the filing of a Federal Tax
 Lien.
                 The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                  With Paying Taxes, but Alerts Can Be Worked More Effectively




Synopsis
An IRS Research Function Report2 in November 2005 and our current review of taxpayer
compliance trends subsequent to the issuance of Alerts generally showed positive results, such as
increased deposits and a higher percentage of fully paid/satisfied subsequent tax liabilities. Once
an Alert was issued, only a small percentage of taxpayers were issued subsequent Alerts,
meaning the taxpayers continued to make deposits.
Although some management information, such as inventory received and disposed, hours
charged, and productivity rates, is regularly captured for the Alert program, an analysis of
whether taxpayers are more compliant subsequent to issuance of an Alert is not regularly
performed. This type of analysis should be performed more frequently (the last research study
was done in November 2005 based on data from the last quarter of Calendar Year 2003 and the
first quarter of Calendar Year 2004), so the effect of working Alerts is known.
Also, our research of IRS guidelines showed those that reflect Alert program criteria need to be
updated. Several reference document sources contain obsolete information and data based on the
old Alert selection criteria. In addition, information displayed on the IRS computer system that
employees use for research does not contain the new Alert priority codes. Inaccurate
information is being displayed, and employees could make incorrect assumptions about a
taxpayer’s account, such as thinking the taxpayer is accruing additional liabilities.
Lastly, our review of a judgmental sample of 50 FTD Alert cases showed revenue officers can
improve their actions on cases by following the required procedures. Documentation in the case
files showed that, in 25 of the 50 cases, revenue officers did not always contact the taxpayers
within the required 15 calendar days, monitor current FTDs, inform taxpayers about potential
penalties related to not depositing taxes on time, and/or inform taxpayers about potential
enforcement action consequences.
The purpose of the required procedures is to allow revenue officers to educate taxpayers at the
earliest possible time after they start falling behind in making their FTDs. These procedures are
meant to educate taxpayers about their responsibilities and what could happen if they do not
make the FTDs and file tax returns. By not following the procedures, the IRS loses an
opportunity to explain the importance of FTDs and the taxpayers’ responsibilities.




2
 Federal Tax Deposit Alert Measures Final Report, Small Business/Self-Employed Division Research function,
Project Number 06.08.001.04, dated November 2005.
                                                                                                             2
                  The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                   With Paying Taxes, but Alerts Can Be Worked More Effectively




Recommendations
We recommended the Director, Collection, periodically measure taxpayer compliance after
contact on an FTD Alert, update IRS guidelines with the current Alert priority codes, and
emphasize procedures and documentation requirements for working Alerts.

Response
The Commissioner, Small Business/Self-Employed Division, agreed with the recommendations
and is taking corrective actions. Small Business/Self-Employed Division management will
sample a group of taxpayers who have had FTD Alerts issued on their accounts and follow their
compliance for the two subsequent tax periods, revise IRS Processing Codes and Information
(Document 6209) to reflect current Alert priority codes (the Internal Revenue Manual displays
the current Alert priority codes), submit a request to the Modernization and Information
Technology Services organization for a programming change that will reflect the current priority
codes on the Master File,3 and develop training specific to Alerts for revenue officers.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




3
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                                  3
                     The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                      With Paying Taxes, but Alerts Can Be Worked More Effectively




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Federal Tax Deposit Alert Program Criteria Are Working
          As Intended, but Management Information Does Not Include a
          Measure of Taxpayer Compliance ................................................................Page 3
                    Recommendation 1:..........................................................Page 5

          The Internal Revenue Service Needs to Update Its Guidelines and
          Research Screens to Reflect the Current Criteria .........................................Page 5
                    Recommendation 2:..........................................................Page 6

          Revenue Officers Were Not Always Following or Documenting Proper
          Procedures on Federal Tax Deposit Alert Cases...........................................Page 6
                    Recommendation 3:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 8
          Appendix II – Major Contributors to This Report ........................................Page 10
          Appendix III – Report Distribution List .......................................................Page 11
          Appendix IV – Taxpayer Compliance Subsequent to Issuance of a
          Federal Tax Deposit Alert.............................................................................Page 12
          Appendix V – Management’s Response to the Draft Report .......................Page 13
      The Federal Tax Deposit Alert Program Helps Taxpayers Comply
       With Paying Taxes, but Alerts Can Be Worked More Effectively




                      Abbreviations

FTD             Federal Tax Deposit
ICS             Integrated Collection System
IRS             Internal Revenue Service
                   The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                    With Paying Taxes, but Alerts Can Be Worked More Effectively




                                              Background

One of the six Small Business/Self-Employed Division collection strategies for Fiscal Year 2007
is to positively affect the potentially collectible inventory of delinquent accounts owed by
taxpayers by increasing the Collection function’s commitment and efforts in reducing the
underpayment portion of the tax gap.1 The daily focus of this strategy is to improve the quality
and quantity of work, which will result in the greatest impact on the tax gap. The Small
Business/Self-Employed Division Collection Program Letter for Fiscal Year 2007 includes five
priorities to address this strategy. One of them is to improve compliance of in-business
taxpayers by taking steps to minimize the pyramiding2 of taxpayer accounts and improve the
monitoring of taxpayer compliance.
Employers are required to withhold amounts from their employees’ salaries to cover individual
Federal income, Social Security, and Medicare taxes; make matching contributions for the
amounts for Social Security and Medicare taxes; deposit these amounts with the Internal
Revenue Service (IRS); and file employment tax returns. Federal Tax Deposits (FTD) are
deposits by an employer of taxes withheld from their employees. As of June 2007, based on IRS
case inventory, employers owed the IRS approximately $12 billion in employment taxes.
The IRS has implemented various intervention
programs, including those addressing FTDs for
                                                                     The FTD Alert program allows
employment tax filers. The FTD Alert program
                                                                    the IRS to intervene early when
(the Alert program) is a proactive process allowing                 taxes withheld from employees
early intervention by the IRS when employers do                          are not paid to the IRS.
not deposit and pay taxes withheld from
employees.
The Alert program identifies taxpayers that appear to be behind in making deposits of
withholding taxes before their quarterly employment tax returns are due to be filed. FTD Alerts
are computer generated, and taxpayers’ accounts will have a specific code indicating there is an
Alert. If the Alert meets a certain probability level that there is an underpayment of FTDs, the
Alert is assigned (issued) to the Collection Field function3 inventory. Revenue officers in the



1
  The tax gap is the difference between the amount of tax that taxpayers should pay under the tax law and the
amount they actually pay on time.
2
  Pyramiding refers to when in-business taxpayers continue to accrue employment tax liabilities quarter after
quarter.
3
  This is the unit in the field offices consisting of revenue officers who handle personal contacts with taxpayers to
collect delinquent accounts or secure unfiled tax returns.
                                                                                                                Page 1
                    The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                     With Paying Taxes, but Alerts Can Be Worked More Effectively




Collection Field function work Alert cases and contact the identified taxpayers in person, to
discuss the deposit requirements and obtain payments.
An FTD Alert can protect the Federal Government’s interest by its early identification of a
potential delinquent tax payment. It also serves the taxpayer’s interest by allowing IRS
involvement before enforced collection action, such as a levy4 of a bank account or seizure of
assets, or bankruptcy becomes the sole remaining alternative for collecting the taxes owed.
This review was performed at the Small Business/Self-Employed Division Collection function
Headquarters in New Carrollton, Maryland, during the period September 2006 through June
2007. The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




4
    A method used by the IRS to collect outstanding taxes from sources such as bank accounts and wages.
                                                                                                          Page 2
                 The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                  With Paying Taxes, but Alerts Can Be Worked More Effectively




                                    Results of Review

The Federal Tax Deposit Alert Program Criteria Are Working As
Intended, but Management Information Does Not Include a Measure of
Taxpayer Compliance
The basis for the current FTD Alert criteria is logical when considering whether to intervene if a
taxpayer does not appear to be making timely tax deposits. The IRS updated the criteria in 2004
to send to the Collection Field function more productive cases than were previously being sent.
The prior selection criteria, which had been in existence since the Alert program’s inception in
1972, were based primarily on a previously specified number of quarters of tax data and
penalties assessed. The prior criteria resulted in large numbers of taxpayer accounts being
selected for Alert issuance based on a minimal amount of FTD penalties.
Collection function management had received feedback from the employees in the Collection
Field function offices that too many unproductive Alert
resolutions occurred based on the previous criteria. For
example, employees would attempt to contact taxpayers         The current criteria for issuing
and find they were already out of business. As a result,         an FTD Alert have more
                                                               potential to select productive
the IRS added to the previous criteria additional filters     cases for revenue officers than
that had the effect of decreasing the total number of              the previous criteria.
Alerts issued so the more productive cases would be
assigned. The management information reports showed
the new criteria helped reduce the overall number of taxpayer accounts selected for Alert
issuance and have more potential to select more productive cases for the revenue officers to
work.
Our analysis of the management information that shows the number of Alerts worked and the
time spent on the cases indicated the information is useful and reliable. The IRS uses the
Integrated Collection System (ICS)5 to capture information related to Alerts and transfers the
data to the official IRS Collection Reports. The data captured include opening inventory,




5
 The ICS is an automated Collection function workload management system designed to automate revenue officer
case processing activities such as inputting history items and generating liens and levies.
                                                                                                      Page 3
                  The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                   With Paying Taxes, but Alerts Can Be Worked More Effectively




receipts, disposition, closing inventory, total hours, hours per disposition, productivity rates,6
closure type, and deposit amounts.
One measure not captured is whether contacting a taxpayer about an Alert results in improving
that taxpayer’s subsequent compliance. The Alert
program is an early intervention program, and one of
its goals is to get taxpayers into compliance as soon as       Although management
                                                         information captures useful data
possible. This type of management information would      related to FTD Alerts, it does not
be helpful to determine whether the Alert program          include a measure of whether
actually brings more taxpayers into compliance than       the Alerts improve subsequent
making no contact.                                                  compliance.

According to an IRS Small Business/Self-Employed
Division Research Function Report7 issued in November 2005, when Alerts were assigned to
Collection function employees, taxpayers paid more in additional deposits in the subsequent tax
periods than those taxpayers on whose accounts no Alerts had not been issued. This Report
compared taxpayers with similar tax liabilities for the last quarter of Calendar Year 2003 and the
first quarter of Calendar Year 2004 and stated there were approximately $6.4 million in
additional tax deposits from the taxpayers that were contacted by the IRS regarding an Alert.
This type of information has not been captured since issuance of the November 2005 Report.
To determine whether the trends continued and to update the information, we performed an
analysis of compliance trends to ascertain the effect of working Alerts. We identified Alerts
issued for the first quarter of Calendar Year 20058 and tracked compliance trends through the
third quarter of Calendar Year 2006 for these taxpayers.
We analyzed the subsequent tax periods to determine whether the accounts were fully
paid/satisfied, had subsequent FTD Alerts issued, or had balances due. Generally, the analysis
showed that a large percentage of the taxpayers were brought into compliance. As time went on,
fewer Alerts were issued for these taxpayers, and, generally, a higher percentage of accounts
were fully paid than were in balance-due status. For further details on these trends, see
Appendix IV.




6
  Productivity rates are calculated as dispositions divided by (the total hours divided by the base salary of a
Full-Time Equivalent). A Full-Time Equivalent is a measure of labor hours in which 1 Full-Time Equivalent is
equal to 8 hours multiplied by the number of compensable days in a particular fiscal year. For Fiscal Year 2006,
1 Full-Time Equivalent was equal to 2,080 staff hours. For Fiscal Year 2007, 1 Full-Time Equivalent is equal to
2,080 staff hours.
7
  Federal Tax Deposit Alert Measures Final Report, Small Business/Self-Employed Division Research function,
Project Number 06.08.001.04, dated November 2005.
8
  We identified FTD Alerts having the priority codes that indicate they would be worked by revenue officers.
However, we did not validate that each case was in fact worked.
                                                                                                            Page 4
                  The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                   With Paying Taxes, but Alerts Can Be Worked More Effectively




IRS management does not regularly monitor subsequent compliance of taxpayers that were
contacted regarding FTD Alerts. Research projects or studies may be conducted to capture the
information; however, the last one was based on 2003-2004 data, prior to the change in Alert
selection criteria. Without the information on a taxpayer’s subsequent compliance, the effect of
working Alerts is not known. This type of information would be useful because it could show
the Alert program is a good way to intervene early in taxpayers’ problems with staying current
and work with them to get back on track. While measuring subsequent taxpayer compliance
monthly may not be practical, it would be helpful if performed periodically.

Recommendation
Recommendation 1: The Director, Collection, should periodically measure taxpayer
compliance subsequent to issuance of an FTD Alert to determine the effectiveness of the Alert
program.
        Management’s Response: IRS management agreed with the recommendation. They
        will sample a group of taxpayers who have had FTD Alerts issued on their accounts and
        follow their compliance for the two subsequent tax periods.

The Internal Revenue Service Needs to Update Its Guidelines and
Research Screens to Reflect the Current Criteria
The IRS should keep its guidelines and procedures as up to date as possible so employees can
follow correct procedures in performing their duties. Data about FTD Alerts are available on the
IRS Master File,9 which employees use for various forms of research on taxpayer accounts such
as to help taxpayers resolve problems or to contact taxpayers to collect delinquent accounts. The
Internal Revenue Manual, which contains IRS guidelines, and the IRS Processing Codes and
Information (Document 6209) describe Master File codes that can be used by a researcher to
identify Alerts and their priorities.10
In Fiscal Year 2004, the IRS changed the selection criteria for FTD Alerts. Although the IRS
updated the Alerts priority codes on the Master File, the new codes do not show on the screens
that employees typically use for research. Employees see the codes that were in effect prior to
implementation of the new criteria. There are some additional codes on the Master File that
reflect the current Alert selection criteria; however, an employee researching the account
information using standard IRS procedures for researching a taxpayer’s account would not see
these additional codes because typical research screens currently display the old codes.

9
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
10
   FTD Alerts have certain priority codes that describe the level of probability that a taxpayer may not have
deposited the correct amount of FTDs.
                                                                                                            Page 5
               The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                With Paying Taxes, but Alerts Can Be Worked More Effectively




The Internal Revenue Manual still presents the former way to identify FTD Alerts. It has not
been updated with the current information on how to identify a current Alert. In addition,
Document 6209 does not contain the priority codes based on the current criteria. Collection
function management had not made updates to these documents as of the date of our review.
Because the guidelines do not contain information based on the current Alert selection criteria,
inaccurate information is being displayed when employees research taxpayer account. The
employee sees the Alert code based on the old criteria and may make incorrect assumptions
about a taxpayer’s account, such as thinking the taxpayer is accruing additional liabilities, and
discuss the FTD underpayments with the taxpayer. If the correct coding was displayed based on
the current criteria, the employee would know it may not be necessary to address the FTD
underpayments.

Recommendation
Recommendation 2: The Director, Collection, should ensure the Internal Revenue Manual
and Document 6209 are updated to reflect the current FTD Alert priority codes and request that
data displayed about Alerts when researching taxpayer accounts on the Master File show the
current criteria and coding.
       Management’s Response: IRS management agreed with the recommendation.
       Document 6209 will be revised to reflect current FTD Alert priority codes. The Internal
       Revenue Manual displays the current Alert priority codes. Small Business/
       Self-Employed Division management will submit to the Modernization and Information
       Technology Services organization a request for a programming change that will reflect
       the current priority codes on the Master File.

Revenue Officers Were Not Always Following or Documenting Proper
Procedures on Federal Tax Deposit Alert Cases
FTD Alerts are sent from the Master File to the ICS for direct assignment to revenue officers in
the Collection Field function offices. Revenue officers should make initial taxpayer contact
within 15 calendar days of receipt of the Alert. They conduct precontact research and analysis to
determine if the Alert should be closed prior to taxpayer contact. When the taxpayer is not in
compliance, IRS guidelines require the revenue officer assigned to the case follow specific
procedures to bring the taxpayer into compliance, such as reviewing FTD requirements,
explaining FTD penalties, ensuring the taxpayer understands the consequences of continued
noncompliance, monitoring the taxpayer’s compliance with deposits, and inputting a record of
FTDs made by the taxpayer as a result of Alert contacts.
We reviewed of a judgmental sample of 50 Alert cases that showed revenue officers effectively
performed compliance checks, determined whether returns were filed, verified whether taxpayers
were liable for deposits, and reviewed FTD requirements with the taxpayers. Revenue officers

                                                                                           Page 6
               The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                With Paying Taxes, but Alerts Can Be Worked More Effectively




collected approximately $525,000 in FTDs while they were in contact with the taxpayers on
these cases.
However, in 25 cases, revenue officers did not take all the required actions for Alert cases and
need to better follow procedures to work these cases more effectively and help ensure taxpayers
make the proper amount of deposits. According to the documentation in the 25 case narratives,
revenue officers did not perform 1 or more of the following required actions:
   •   Contact the taxpayers timely (i.e., within the required 15 calendar days) in 9 cases. The
       range of time for the untimely contacts was 16 days to 36 days.
   •   Monitor current FTDs in eight cases.
   •   Inform taxpayers about potential penalties related to untimely tax deposits in 18 cases.
   •   Inform taxpayers about potential enforcement action consequences in 13 cases.
In addition, we identified a difference in the future compliance of taxpayers in those cases that
were worked according to procedures compared to the future compliance of those taxpayers for
whom revenue officers did not take all required actions. For the 25 cases not worked according
to procedures, 17 taxpayers accrued 29 additional outstanding balances for the FTD Alert and
subsequent quarters through the fourth quarter of 2006. For the 25 cases worked according to
procedures, only 8 taxpayers accrued 13 additional outstanding balances for the Alert and
subsequent quarters.
The purpose of the required procedures is to allow revenue officers to educate taxpayers at the
earliest possible time after they start falling behind in making their FTDs. These procedures are
meant to educate taxpayers about their responsibilities and what could happen if they do not
make the FTDs and file tax returns. When procedures are not followed, the IRS loses an
opportunity to explain the importance of the FTDs and the taxpayers’ responsibilities.
If revenue officers follow proper procedures, the potential for helping taxpayers remain
compliant will increase. The November 2005 IRS Research Study and our research during this
audit have shown the Alert program is effective; if more effective work is done when contacting
the taxpayers, there is the potential for additional compliance.

Recommendation
Recommendation 3: The Director, Collection, should ensure employees follow proper
procedures by emphasizing the procedures and documentation requirements for working FTD
Alerts.
       Management’s Response: IRS management agreed with the recommendation. They
       will develop training specific to FTD Alerts for revenue officers.


                                                                                           Page 7
                 The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                  With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                                                             Appendix I

         Detailed Objective, Scope, and Methodology

The objective of the review was to determine the effectiveness of the FTD Alert program (the
Alert program) criteria and case actions to bring taxpayers into compliance with paying taxes.
To accomplish this objective, we:
I.      Determined whether the Alert program and the current Alert selection criteria are proper
        for accomplishing the intended goals.
        A. Identified the current criteria, procedures, controls, and objectives of the Alert
           program.
        B. Compared the current criteria to the prior criteria.
        C. Determined whether the Alert program is achieving its objectives.
        D. Determined whether there is sufficient management information available to report
           the Alert results by evaluating the type(s) of management information available and
           the source of the information.
II.     Determined whether employees effectively follow procedures and controls when working
        FTD Alerts.
        A. Obtained the population of 16,824 open and 6,838 closed Alerts issued from the
           Treasury Inspector General for Tax Administration Data Center Warehouse ICS1
           Open and Closed files. The data identified taxpayers who were issued Alerts for
           Calendar Year 2006. The taxpayers included those filing Employer’s QUARTERLY
           Federal Tax Returns (Form 941) who are classified as semiweekly depositors, have
           not made FTDs during the current quarter, or have made deposits in substantially
           reduced amounts.
        B. Validated the reliability of data by comparing IRS-provided data against our data on
           the ICS contained in the Data Center Warehouse. To determine the numbers of
           Alerts closed during the second and third quarters of Calendar Year 2006, we queried
           the Closed History Table in the ICS from the Data Center Warehouse and compared
           this with IRS data. In addition, we compared the data for the number of Alerts closed
           to the Collection 5000-23 report.



1
 The ICS is an automated Collection function workload management system designed to automate revenue officer
case processing activities such as inputting history items and generating liens and levies.
                                                                                                      Page 8
                   The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                    With Paying Taxes, but Alerts Can Be Worked More Effectively




         C. Obtained a judgmental sample of 50 Alerts (25 open and 25 closed) issued in the
            quarters ended June or September 2006 from the data obtained in Step II.A. We used
            only the mandatory Alert that was issued to the Collection Field function2 and worked
            by the revenue officers. We obtained ICS case histories for the sample of Alerts and
            requested IRS computer information to review the taxpayer history. Because we
            determined that we would be unable to project outcome measures over the entire
            population, we chose for review a judgmental sample of 50 Alert cases from the ICS
            open and closed files.
         D. Reviewed case histories to determine whether the Alerts were worked timely and
            closed appropriately. We determined whether revenue officers properly informed
            taxpayers about deposit requirements, penalties, and consequences for not depositing
            and whether revenue officers monitored current deposit payments.
         E. Verified whether the sample cases met the Alert selection criteria.
III.     Determined whether FTD Alerts worked effectively to bring taxpayers into compliance.
         A. Identified 1,789 taxpayers with Alerts issued for the quarter ending in March 2005
            that had the priority to be worked by the Collection Field function. We tracked the
            taxpayers’ compliance through the quarter ending September 2006 for a total of
            6 additional quarters. Specifically, we identified the current status for all quarters for
            such things as returns filed, FTDs made, balances due, taxpayer accounts having had
            more than one Alert issued, taxpayers that are now fully paid and in compliance, and
            taxpayers not required to file.
         B. Determined the reliability of the data from the ICS by relying on Treasury Inspector
            General for Tax Administration Data Center Warehouse site procedures that ensure
            data received from the IRS are valid. Various procedures are performed to ensure the
            Warehouse receives all the records in the ICS and IRS databases. In addition, we
            scanned the data for reasonableness and are satisfied that the data used in this report
            are sufficient, complete, and relevant to the review.




2
 This is the unit in the field offices consisting of revenue officers who handle personal contacts with taxpayers to
collect delinquent accounts or secure unfiled tax returns.
                                                                                                               Page 9
               The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Julian O’Neal, Lead Auditor
Cristina Johnson, Senior Auditor
Marcus Sloan, Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                        Page 10
              The Federal Tax Deposit Alert Program Helps Taxpayers Comply
               With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 11
                   The Federal Tax Deposit Alert Program Helps Taxpayers Comply
                    With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                                                                  Appendix IV

    Taxpayer Compliance Subsequent to Issuance of a
               Federal Tax Deposit Alert

The following are some compliance trends identified during our analysis of taxpayer account
data subsequent to issuance of an FTD Alert (an Alert) for the quarter ending March 2005.
Comparing these compliance trends to those of similar taxpayer accounts that did not have an
Alert issued would be helpful to determine whether the Alert program is effective.
Total Alerts issued meeting the criteria for assignment to the Collection Field function1 from all
tax quarters in our data: 3,389 tax quarters.2 Over 75 percent of the accounts for the tax periods
are currently fully paid/satisfied.
There were 1,789 taxpayers whose first quarter of 2005 (March 2005) Alerts would have met the
criteria for assignment.
      •      Only 323 of these taxpayers had subsequent Alerts issued.
      •      Approximately 87 percent of the March 2005 tax periods are fully paid/satisfied.
      •      These taxpayers had 11,381 tax periods on the IRS Master File3 for the March 2005
             through September 2006 tax periods.
             o    8,808 (77 percent) were fully paid/satisfied.
             o    1,803 (16 percent) were in balance-due status.
             o    236 (2 percent) were in delinquent return status.
             o    236 (2 percent) were in installment agreement4 status.
             o    298 (3 percent) remaining cases were shown as having the tax quarter established
                  on the Master File, but no return had been filed.


1
  This is the unit in the field offices consisting of revenue officers who handle personal contacts with taxpayers to
collect delinquent accounts or secure unfiled tax returns.
2
  Due to incorrect Alert coding on the Business Master File for the December 2005 and September 2006
employment tax quarters, we did not obtain all Priority A- and B-coded Alerts for those quarters. We attempted to
estimate the number based on one part of the criteria; however, due to the difficulty of the analysis, we determined it
was best to not include those quarters in this analysis. Therefore, these numbers include the following employment
tax quarters: March, June, and September 2005; March, June, and December 2006. The Business Master File is the
IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
4
  The IRS allows taxpayers to pay their taxes in installments and enter into installment agreements, with interest and
penalties, when full payment is not possible.
                                                                                                             Page 12
   The Federal Tax Deposit Alert Program Helps Taxpayers Comply
    With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                    Appendix V

Management’s Response to the Draft Report




                                                          Page 13
The Federal Tax Deposit Alert Program Helps Taxpayers Comply
 With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                       Page 14
The Federal Tax Deposit Alert Program Helps Taxpayers Comply
 With Paying Taxes, but Alerts Can Be Worked More Effectively




                                                       Page 15
